HHS/OIG, Audit -"Review of Head Start Enrollment at the Detroit Department of Human
Services,"(A-05-05-00025)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Head Start Enrollment at the Detroit Department of Human Services," (A-05-05-00025)
November 16, 2005
Complete
Text of Report is available in PDF format (121 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective
of the audit was to determine whether enrollment in the Detroit Head Start Program was
in accordance with ACF funding levels.  We found that delegates generally met the
adjusted enrollment levels established by ACF.  Federal regulations require that Head
Start grantees maintain funded enrollment levels and promptly fill vacancies.  The
Detroit Head Start program contracted with seven delegates to provide Head Start services
to Detroit-area children.  Because our review of enrollment records at Detroit Public
Schools, Hartford and New Saint Paul disclosed no material differences between the funded
and actual enrollment rates, we have no recommendation to report.